No. 20 - ______

IN THE SUPREME COURT OF THE UNITED STATES
___________
MELVIN LANDRY, JR.
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.
__________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
______________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
_____________
JAMES S. THOMSON
Counsel of Record
732 Addison Street, Suite A
Berkeley, California 94710
Telephone: (510) 525-9123
Attorney for Petitioner
MELVIN LANDRY, JR.

Appendix A

001

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 11 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

FILED

NOT FOR PUBLICATION

AUG 3 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

15-10497

D.C. No.
4:13-cr-00466-JSW-2

v.
DOMINIQUE MARQUIS MARTIN, AKA
Domo,

MEMORANDUM*

Defendant-Appellant.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

15-10502

D.C. No.
4:13-cr-00466-JSW-1

v.
MELVIN LANDRY, Jr., AKA New Hefner,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of California
Jeffrey S. White, District Judge, Presiding
Argued and Submitted September 12, 2017
Submission Vacated March 5, 2018
Resubmitted August 3, 2020
San Francisco, California
*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

002

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 22 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

Before: W. FLETCHER, OWENS, and FRIEDLAND, Circuit Judges.1
Defendants Melvin Landry and Dominique Martin appeal their
convictions and sentences for Hobbs Act robbery, 18 U.S.C. § 1951(a), and
possession of a firearm during and in relation to a crime of violence, 18 U.S.C.
§ 924(c). Landry’s and Martin’s convictions arose out of the activities of a group
of individuals, led by Landry, who allegedly robbed several homes and retail stores
at gunpoint starting in 2011. This appeal relates to four of that group’s alleged
robberies: (1) the 2011 robbery of a McDonald’s restaurant by two men, one of
whom pointed at the manager a gun that the manager described as “silvery or kind
of black,” like the kind police use; (2) the 2012 robbery of a Wal-Mart customer
service desk by three men, one of whom, according to witnesses, had a gun that
was silver and had etching on it; (3) the 2012 robbery of a different Wal-Mart
customer service desk; and (4) the 2013 robbery of a third Wal-Mart customer
service desk by two men, one of whom pointed a gun at several employees that the
employees later testified was brushed aluminum, large caliber, and not a BB gun or
pellet gun.

1

This case was originally submitted to a panel that included Judge Kozinski
and United States District Judge Mark Bennett. After Judges Kozinski and Bennett
retired, Judges Fletcher and Owens, respectively, were drawn by lot to replace
them. See Ninth Circuit General Order 3.2.h. Judges Fletcher and Owens have
read the briefs, reviewed the record, and listened to oral argument.
2

003

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 33 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

Martin and Landry were arrested and went to trial in the summer of 2015 on
a slate of charges relating to the robberies. (An alleged co-conspirator, Rudolpho
James, was also arrested, but pleaded guilty.) The government’s evidence at trial
included surveillance footage, eyewitness testimony, fingerprint evidence, cell
phone location data, and incriminating pictures posted on Facebook and Instagram,
among other evidence. Ultimately, as relevant here, Landry was found guilty of
conspiracy to commit Hobbs Act robbery, three counts of Hobbs Act robbery, and
three counts of possessing a firearm during and in relation to a crime of violence.
Martin was found guilty of conspiracy to commit Hobbs Act robbery, four counts
of Hobbs Act robbery, and three counts of possessing of a firearm during and in
relation to a crime of violence. Landry and Martin were each sentenced to more
than fifty years of imprisonment and five years of supervised release. Both timely
appealed their convictions and sentences, and we affirm.
1.

Viewed in the light most favorable to the prosecution, see United

States v. Nevils, 598 F.3d 1158, 1163-64 (9th Cir. 2010) (en banc), the evidence at
trial that Landry and Martin had stolen several thousand dollars in checks and cash
from an international retail business, and that that business was forced to
temporarily shutter its customer service counter as a result, was sufficient for a
rational trier of fact to conclude that the robberies had at least a de minimis effect
on interstate commerce as required to satisfy the Hobbs Act’s jurisdictional

3

004

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 44 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

requirement. See 18 U.S.C. § 1951(a); United States v. Rodriguez, 360 F.3d 949,
955 (9th Cir. 2004) (“Robbery of an interstate business . . . typically constitutes
sufficient evidence to satisfy the Hobbs Act’s interstate commerce element.”). The
Supreme Court’s decisions in United States v. Lopez, 514 U.S. 549 (1995), and
United States v. Morrison, 529 U.S. 598 (2000), are not to the contrary, and were
decided before our decision in Rodriguez, so we would be bound by Rodriguez in
any event. See Miller v. Gammie, 335 F.3d 889, 899-900 (9th Cir. 2003) (en
banc).
2.

The district court did not err in concluding that Hobbs Act robbery

constitutes a “crime of violence” under the force clause of 18 U.S.C. § 924(c). See
United States v. Dominguez, 954 F.3d 1251, 1255 (9th Cir. 2020) (“In light of
recent Supreme Court cases, we . . . reiterate our previous holding that Hobbs Act
armed robbery is a crime of violence for purposes of 18 U.S.C. § 924(c)(3)(A).”);
see also United States v. Mendez, 992 F.3d 1488, 1490-91 (9th Cir. 1993).
3.

The evidence at trial was sufficient to prove that the guns used in the

robberies were “firearms,” as that term is used in 18 U.S.C. § 924(c) and defined in
18 U.S.C. § 921(a)(3). Viewed in the light most favorable to the prosecution, the
evidence that Landry and Martin had the opportunity and ability to obtain real
guns, as well as the security footage and eyewitness and co-conspirator testimony
that Landry and Martin were carrying guns, allowed a rational factfinder to

4

005

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 55 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

conclude that the guns at issue were real and were not toys or replicas. See, e.g.,
United States v. Garrido, 596 F.3d 613, 616-17 (9th Cir. 2010) (affirming the
defendant’s § 924(c) conviction on the basis of video evidence and testimony from
a victim who described a gun as looking like a “nine millimeter” and felt its cold
metal pressed behind his ear, and victim testimony that the defendant had a “gun”
that “looked real”); United States v. Harris, 792 F.2d 866, 867-68 (9th Cir. 1986)
(affirming the defendant’s conviction on the basis of surveillance photos and
testimony from victims that the weapon was made of “gunmetal,” and “appeared to
be either a .38 or .45 automatic with the hammer cocked,” and describing that
evidence as “overwhelming[]” (quotation marks omitted)).
4.

The district court did not err by admitting evidence that Martin was

found with a real rifle during a 2009 arrest, two years before the conspiracy
allegedly began. Although this evidence was not “intrinsic” to the charges, see
United States v. Anderson, 741 F.3d 938, 949 (9th Cir. 2013), the district court did
not abuse its discretion in concluding that, when accompanied by an appropriate
limiting instruction, the evidence was admissible under Federal Rule of Evidence
404(b) to show that Martin had the opportunity and capacity to obtain a real
firearm during the alleged conspiracy and to rebut Defendants’ arguments that the
guns used in the robberies could have been fake, see United States v. Beckman, 298
F.3d 788, 794 (9th Cir. 2002). United States v. Thomas, 321 F.3d 627 (7th Cir.

5

006

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 66 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

2003), and McKinney v. Rees, 993 F.2d 1378 (9th Cir 1993), are not to the
contrary. The issue in both cases was whether the defendant’s previous
possessions were relevant to prove possession or opportunity and motive to possess
a weapon (without regard to whether that weapon was real or fake)—not, as here,
whether the weapon the defendant had possessed was real. See Thomas, 321 F.3d
at 634; McKinney, 993 F.2d at 1382-83.
Nor did the district court abuse its discretion in concluding that the probative
value of such evidence was not substantially outweighed by a danger of unfair
prejudice. See Fed. R. Evid. 403; Beckman, 298 F.3d at 794.
5.

Even if the district court did err by admitting evidence of Landry’s

arrest with a handgun in 2011 on the grounds that the evidence was inextricably
intertwined with the charged offenses, any error was harmless. See United States
v. Torres, 794 F.3d 1053, 1063-64 (9th Cir. 2015). As with Martin’s 2009 arrest,
the evidence could have been admitted under Rule 404(b) to show ability and
willingness to obtain a real gun around the time of the alleged conspiracy in order
to rebut the argument that the guns used in the robberies were fake. And ample
other evidence, such as fingerprints, cell phone location data, eyewitness
testimony, surveillance footage, and the incriminating testimony of a coconspirator, supported the government’s case.
The district court did not err by admitting evidence of Landry’s 2013 arrest,

6

007

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 77 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

which led to the discovery of a small amount of marijuana, phones containing
incriminating pictures, and a live round of ammunition, as intrinsic to the
government’s case because such evidence was relevant to present a background of
the alleged conspiracy.
6.

The district court did not plainly err by permitting a co-conspirator to

testify about Martin’s and Landry’s gun use, because the co-conspirator’s
testimony was relevant to prove that Martin and Landry had the ability to use and
in fact did use real firearms during the alleged conspiracy. The co-conspirator’s
trustworthiness was a jury issue.
7.

The district court did not abuse its discretion in concluding that the

government had adequately authenticated pictures found on Martin’s and Landry’s
phones and on social media accounts associated with their names or birthdates.
The testimony about the origins of the pictures and accounts, the testimony of a
Facebook custodian, the testimony of a co-conspirator, and the contents of the
photographs themselves constituted sufficient proof that a reasonable juror could
find them to be authentic. See Fed. R. Evid. 901(a); United States v. Tank, 200
F.3d 627, 630-31 (9th Cir. 2000); United States v. Black, 767 F.2d 1334, 1342
(9th Cir. 1985).
This evidence was relevant because it appeared to depict Landry and his coconspirators with, among other things, guns, drugs, and large amounts of cash,

7

008

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 88 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

suggesting the ability to obtain guns during the period of the alleged conspiracy,
and substantiating the government’s allegation that the racketeering enterprise had
illegally obtained, laundered, and spent stolen cash. And even assuming that some
of the pictures were more prejudicial than probative, any error was harmless.
Given the other evidence suggesting that Defendants had participated in each
robbery—surveillance photos, eyewitness testimony, cell phone location evidence,
co-conspirator testimony, and fingerprints—it is not more probable than not that
the admission of the contested photographs materially affected the verdict. See
Torres, 794 F.3d at 1063.
8.

Although it may have been impermissibly suggestive for police to

both deploy a lineup in which Landry was the only suspect with a mole and refresh
a witness’s memory with photos of the crime itself, see United States v. Beck, 418
F.3d 1008, 1012-13 (9th Cir. 2005), any error was harmless, because the jury saw
surveillance footage during the trial, and could compare that footage to Landry
himself, who sat before them for the duration of the trial.
9.

The district court did not err in denying Landry’s request for a hearing

under Franks v. Delaware, 438 U.S. 154 (1978), to consider whether the affidavit
used to obtain a warrant for the phone found on his person was misleading.
Because Landry did not offer any evidence of the affiant’s mental state, the district
court did not clearly err in finding that the affidavit did not contain purposefully or

8

009

Case:
15-10497, 08/03/2020,
ID: 11775043,
DktEntry:
89-1, Page
Page 99 of
of 99
Case 4:13-cr-00466-JSW
Document
808 Filed
08/03/20

recklessly false statements or omissions. See id. at 171; see also United States v.
Perkins, 850 F.3d 1109, 1115 (9th Cir. 2017). And even if the information omitted
from the challenged affidavit—that Landry was not the only person who possessed
the phone—had been included, it would not have prevented the government from
establishing probable cause. See Franks, 438 U.S. at 155-56, 171-72.
10.

The jury instruction on the elements of aiding and abetting liability

under 18 U.S.C. § 924(c) was not plainly erroneous. It implemented the holding of
Rosemond v. United States, 572 U.S. 65 (2014), and to the extent our decisions
prior to Rosemond imposed different requirements, they were overruled by
Rosemond.
11.

Martin’s and Landry’s sentences are constitutional despite their

length. We have previously rejected their contrary arguments. See United States
v. Harris, 154 F.3d 1082, 1084 (9th Cir. 1998) (explaining that a sentence within
the limits set by a valid statute may not be overturned as cruel and unusual on
appeal); see also United States v. Major, 676 F.3d 803, 812 (9th Cir. 2012)
(explaining that sentences of hundreds of years are not cruel and unusual under our
precedent); United States v. Washman, 128 F.3d 1305, 1307 (9th Cir. 1997)
(rejecting the argument that 18 U.S.C. § 3553(f) deprives defendants of their Fifth
Amendment right not to testify in their own defense).
AFFIRMED.

9

010

Appendix B

011

Case: 15-10502, 11/19/2020, ID: 11899024, DktEntry: 94, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

NOV 19 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

15-10502

D.C. No.
4:13-cr-00466-JSW-1
Northern District of California,
Oakland

MELVIN LANDRY, Jr., AKA New Hefner,
ORDER
Defendant-Appellant.
Before: W. FLETCHER, OWENS, and FRIEDLAND, Circuit Judges.
The panel has voted to deny Appellant’s petition for rehearing and petition
for rehearing en banc. The full court has been advised of the petition for rehearing
en banc, and no judge has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petitions for rehearing and rehearing en banc are DENIED.

012

